No.

91 -5005
IN THE

SUPREME COURT OF THE UNITED SI

F\ . |L

r

U iaia

Etijen tf Je/Y) /Yf)
FILED
JUN 2 1 2021

(Your Name)
vs.

OFFICE OF THE CLERK
SUPREME COURT, U.S.

M-ert ££l

— RESPONDENT^)
ON PETITION FOR A WRIT OF CERTIORARI TO

CfiLur-t- of- ftpfw-fs

for

Tf*

tffft

tfircou f

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

£

irUJ frj

Eu^en^

^rvu-ciT)

(Your Name)

Y^7

Ctrc(-c

(Address)

L i k^rfy j

ff^OuS

(City, Stale, Zip Code)

CM) Jfo-fogd
(Phone Number)

775 7s

QUESTION(S) PRESENTED

QUESTION ONE: DID THE LOWER COURTS VIOLATE SEMIEN’S RIGHT TO DUE
PROCESS UNDER THE 5th AMENDMENT DUE PROCESS CLAUSE BY FAILING TO
FOLLOW SUPREME COURT PRECEDENT ESTABLISHED IN JONES V. BOCK, 549 U.S.
199(2007)?
QUESTION TWO: DID THE LOWER COURTS VIOLATE SEMIEN’S 1st AMENDMENT
RIGHTS “TO PETITION THE GOVERNMENT FOR REDRESS OF GRIEVANCES" BY
FAILING TO FOLLOW SUPREME COURT PRECEDENT ESTABLISHED IN JONES V.
BOCK, 549 U.S. 199 (2007)?
QUESTION THREE: DID THE LOWER COURT ERROR BY REQUIRING A “SPECIFIC”
EMPLOYEE FOR THE GOVERNMENT TO BE NAMED IN AN ADMINISTRATIVE CLAIM
UNDER THE FEDERAL TORT CLAIMS ACT (28 U.S.C, 1346(b)) BEFORE THAT CLAIM
CAN BE PROPERLY BE CONSIDERED AND PRESENTED IN FEDERAL COURT
CONFLICT SUPREME COURT PRECEDENT ESTABLISHED IN JONES V. BOCK, 549 U.S.
199 (2007)?
QUESTION FOUR: DID SEMIEN, BY THE INCLUSION OF THE “BROKEN CHAIR" IN HIS
ADMINISTRATIVE CLAIM MEET THE JURISDICTIONAL THRESHOLD UNDER THE
FEDERAL TORT CLAIMS ACT AND THIS COURTS DECISION IN JONES V. BOCK, 549
U.S. 199 (2007)?

f
l.

LIST OF PARTIES

[\4 AH parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES

l:llTCV-5SiATES D'STRICT C0URT FOR ™E “S'1®" DISTRICT OR TEXAS:

2.) UNITED STATES COURT OF APPEALS FOR THE FIFTH CIRCUIT: 19-41061
3.) JONES V. BOCK, 549 U.S. 199 (2007)

TABLE OF CONTENTS

OPINIONS BELOW

1

JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

£

STATEMENT OF THE CASE

4-S

REASONS FOR GRANTING THE WRIT

<p

CONCLUSION

7.

INDEX TO APPENDICES

APPENDIX A

APPENDIX B

of~ Hl'C

6f>(n • o n o f
OtsW* C f of

APPENDIX C

APPENDIX D

APPENDIX E

APPENDIX F

cut +

U. S. 0/'s 'frtc 4Ij .

C.QU.irb &f~

6-P -fA<

.

TABLE OF AUTHORITIES CUED

CASES

JONES V. BOCK, 549 U.S. 199 (2007)

STATUTES AND RULES

28 U.S.C. 1346 (b)
28 U.S.C. 2671
28 U.S.C. 2675(a)
28 U.S.C. 2679(b)(1)
RULE 12(b)(1)

OTHER

PAGE NUMBER

H-U

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

Q_t»

[ ] reported at
;«r,
[ ] has been designated for publication but is not yet reported; or,
fylTis unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

to

[ ] reported at
;or,
[]ps been designated for publication but is not yet reported; or,
[cdis unpublished.
u
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the_
appears at Appendix

court
to the petition and is

[ ] reported at____
;or,
[ ] has been designated for publication but is not yet reported; or,
I ] is unpublished.
1.

JURISDICTION

[i/f For cases from federal courts:
The date on which the United Stages Court of Appeals decided my case
2£

was f^.krU dry

[ ] No petition for rehearing was timely filed in my case.
[■^Atimely petition for rehearing was denied by the United States Court of
Appeals on the following date:
arch_30;
3-/ j and a copy of the
order denying rehearing appears at Appendix
__
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
_______________ ______ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date)in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

1.

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

U.S. CONSTITUTION: FIRST AMENDMENT (Right to petition)
U.S. CONSTITUTION: FIFTH AMENDMENT (Due Process)
FEDERAL TORT CLAIMS ACT (FTCA): 28 U.S.C. 1346(b)
28 U.S.C. 2675(a).
Fed. R. Civ P. 12(b)(1)

STATEMENT OF THE CASE
On or about December 17,2016, while incarcerated in the FEDERAL BUREAU OF PRISONS
In Beaumont, Texas 77575. PLaintiff SEMIEN unknowingly sat in a broken chair which caused
SEMIEN to fall and injure his right shoulder. SEMIEN timely filed an administrative tort claim
Under the FEDERAL TORT CLAIMS ACT (FTCA) 28 U.S.C. 1346(b), which was received on
February 8, 2018 (ROA1-41), which was denied on May 29, 2018 (ROA1-41). SEM IEN then
Filed a civil suit under FTCA 28 U.S.C. 1346(b), a “Spears test” was conducted under 5th Circuit
precedent SPEARS v. McCOTTER 766 F.2d 179 (5th Cir. 1985) as a test to see if a plaintiff
meets all the requirements to sue in Federal Court (including exhaustion of administrative
remedies). SEMIEN met all of the requirements and case proceeded. The United States filed its
“FIRST MOTION TO DISMISS”, SEMIEN filed opposition to government's motion. U.S.
MAGISTRATE JUDGE ZACH HAWTHORN recommended the defendants (governments
motion) be denied (see Appendix 3), U.S. DISTRICT JUDGE MARCIA A. CRONE adopted the
Magistrates recommendation, The Government made no “Objections” to Judges ORDER within
the 14 day objection deadline. The broken chair was mentioned during the first ruling by the
magistrate as well as adopted by District Judge. On September 23,2019 the Defendant filed a
"SECOND MOTION TO DISMISS” relitigating an already decided issue “the broken chair”, this
time adding that a “specific government employee” was not mentioned and this alone deprived
the court of “JURISDICTION”. The magistrate granted the defendants “second motion to
dismiss" (on already decided facts), the US District Judge adopted the magistrates
Recommendation. SEMIEN timely appealed to the FIFTH CIRCUIT COURT OF APPEALS on
December 26,2019. SEMIEN argued that the lower court did have jurisdiction and under
SUPREME COURT PRECEDENT in JONES v. BOCK, 549 U.S. 199 (2007), the court erred by

requiring SEMIEN to include the exact “employee for the government” that caused SEMIENS
injury, Specifically what employees were negligent in maintaining the broken chair. SEMIEN
believes that by including the “broken chair” in the initial administrative claim as well as the
subsequent complaint that SEMIEN met the JURISDICTIONAL THRESHOLD to sue in
FEDERAL COURT under the FEDERAL TORT CLAIMS ACT, SEMIEN believes that the lower
courts are continuously incorrectly applying SUPREM E COURT PRECEDENT and ask this
honorable court to clarity its decision in JONES v. BOCK.

5.

REASONS FOR GRANTING THE PETITION

As the highest court in the United States of America, it is the duty of the Supreme Court to
bring clarity, uniformity, equality and above all justice to the citizens to which it serves. This
Honorable court should not turn a blind eye to the misuse or misapplication of its precedent
The Lower Courts including the United States Court of Appeals For the Fifth Circuit,
continuously misinterpret the binding precedent of this honorable court, this in my opinion denies
all those who bring civil suit in federal court under the Federal Tort Claims Act which SEMIEN
believes that this denies a plaintiff due process as well as a First Amendment right ‘to petition
the government for redress of grievances”, l ean only hope and pray that this Honorable court
addresses these issues and not continue to allow this mockery of justice to continue. In the 14
years since JONES v. BOCK, 549 U.S. 199 (2007) the tower courts continue to misinterpret
this court's opinion by still requiring plaintiffs to show a “specific employee for the government”
That caused a plaintiff harm to maintain a claim under 28 U.S.C. 1346(b) FTCA, or to meet the
Jurisdictional threshold. This is not a case of one individual, but a case of equality for all future
plaintiffs of FTCA claims. SEMIEN respectfully ask this Court to strongly consider GRANTING
this petition.

Lt<

By continuing to allow the Lower Courts to misinterpret this court's binding opinions undermine
this Honorable court as well as compromise the integrity of the Judicial system in the United
States as a whole. SEM JEN respectfully urges this Honorable Court to GRANT THE PETITION
as it would be in the interest of FAIRNESS AND JUSTICE.

CONCLUSION

The petition for a writ of certiorari shonld be granted.

Respectfully submitted,

Date:

/f, 2**-/

7.

